BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Big Port
Service DMCC v. China Shipping Container Lines Co.
Ltd., was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 31st day of July, 2020:
Gina M. Venezia
Michael James Dehart
Freehill Hogan & Mahar LLP
80 Pine Street
24th Floor
New York, NY 10005
(212) 425-1900
venezia@freehill.com
dehart@freehill.com
Counsel for Respondent
Jonathan A. Herstoff
Counsel of Record
Jessica L. Sblendorio
Haug Partners LLP
745 Fifth Avenue
New York, NY 10151
(212) 588-0800
jherstoff@haugpartners .com
Counsel for Petitioner

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
' 1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 31, 2020.

DonnaJ. Wo
Becker Gallag eT Legal ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affi.ant on the date below designated.

Date:

,

kb j td[JJ()

J~ ~ rj,

Notary Public
[seal]

~

